                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: 108120059                                                                  Page 1 of 1



         This investigation was opened pursuant to infonnation received from a complainant I
         who alleged that his Payroll Administrator2 (Subject 1) was caught in an embezzlement scheme
         whereby she set up fraudulent payroll payments to individuals who were not employees of his
         company and that one of the individuals identified was an NSF employee 3 • The complainant
         stated that he reported this infonnation to the police4 and a Detective 5 was assigned.

         NSF/OIG assisted the Detective in his investigation by providing infonnation about the NSF
         employee. Later, NSF/OIG was notified that the Payroll Administrator (Subjectl) had obtained
         a position as a contract employee at NSF. The NSF employee was tenninated from her position
         for reasons unrelated to the investigation and Subject 1, for'reasons unknown, is no longer
         employed with NSF. This case is being closed as the two individuals are no longer employed at
         NSF.

         Accordingly, this matter is closed.




NSF OIG Form 2 (11102)
